—
I

OCKLE

2311 Douglas Street CA . E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B ae te contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 \www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-1144

BAYER HEALTHCARE
PHARMACEUTICALS INC., et al.,
Petitioners,
Vv.
CURTIS ULLESEIT, et al.,
Respondents.

BAYER HEALTHCARE
PHARMACEUTICALS INC., et al.,
Petitioners,
Vv.
BETH WINKLER,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF FOR THE
PETITIONERS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 886 words, excluding the parts that are exempted by

Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 23rd day of July, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska ve 2 Z d,
. RENEE J. GOSS: 9 G
My Comm, Exp. September 5, 2023 *

Notary Public Affiant 40939
